U.S. Department of Agriculture
 Office of Inspector General
      Southeast Region
         Audit Report



 Food Stamp Employment and Training
        Program - Tennessee




                 Audit Report No.
                 27601-12-At
                 MARCH 2003
                      EXECUTIVE SUMMARY
             FOOD STAMP EMPLOYMENT AND TRAINING
                    PROGRAM - TENNESSEE

                    AUDIT REPORT NO. 27601-12-AT

                                   This report presents the results of our self-
     RESULTS IN BRIEF              initiated audit of the administration of the Food
                                   Stamp (FS) Employment and Training (E&T)
                                   Program by the Food and Nutrition Service’s
         Regional office (FNSRO) in Atlanta, Georgia, and the State of Tennessee.
         In Tennessee, the State’s Department of Human Services (DHS)
         administered the program and contracted with the Department of Labor
         and Workforce Development (DLWD) until June 2000 to provide E&T work
         and training components. In June 2000, FNS contracted directly with the
         DLWD to administer the program while DHS continued to identify clients to
         be served.

           The E&T Program provides funds to assist or train FS recipients to find
           employment opportunities. The audit objectives were to determine
           whether FNSRO was adequately monitoring States to ensure their E&T
           Program complied with Federal guidelines, and that the State agency (SA)
           who administered the E&T Program and fiscal activities was in compliance
           with those guidelines.

           Our review of FNSRO’s monitoring of SA's compliance with E&T
           requirements and our on-site review of one selected State, Tennessee,
           disclosed significant fiscal and program management deficiencies.
           Tennessee claimed reimbursement for E&T Program expenses in excess
           of the actual cost of operating the program. The claims were for program
           administration such as salaries, benefits, and rent. The State did not have
           adequate documentation to support actual operating costs. For fiscal year
           (FY) 2000, Tennessee claimed $2,468,348 reimbursement for expenses
           incurred in operating the program. Our statistical review, however,
           disclosed that the State claimed $1,280,152 in excess of actual costs.
           This was the first year that the State participated under FNS’ study of
           alternatives to the nationally prescribed fixed reimbursement rates.

           In the prior year, the State received fixed rate reimbursement for each
           able-bodied adult without dependants (ABAWD) served. However, the
           State over-reported the number of ABAWD's served and claimed
           excessive funds of $1,872,579. This resulted, in part, because the State


USDA/OIG-A/27601-12-At                                                         Page i
            claimed 76,016 orientation/assessment call-in letters as job offers when
            their internal reports showed only 5,575 face-to-face assessments for
            ABAWD's.

            Tennessee had not developed workfare contracts and related worksites to
            assure that every ABAWD had a bona-fide work opportunity and a means
            of maintaining FS benefits. Instead, the State focused on job search
            activities that cost the State less and required less staff involvement than
            workfare, training, and educational activities. For FY 2000, the SA
            claimed that job search was tied to workfare and reported 23,234 offered
            and 3,677 filled workfare positions but only 57 ABAWD's were actually
            placed in workfare. Without workfare contracts, the State was not able to
            provide the level of service needed to adequately serve ABAWD's and
            justify the costs claimed.

            FNSRO has not adequately monitored and evaluated the States E&T
            Programs including the study of alternative reimbursement methods. In
            addition, it had not provided sufficient reviews of States' actual operating
            costs, staffing levels, and other administrative expenses. FNSRO had not
            fully evaluated program costs to determine if States' reimbursement claims
            were necessary and reasonable. As a result, FNSRO did not have
            adequate information available for monitoring participation, evaluating
            success, and assuring that cost reimbursements to States had not
            exceeded the cost of providing services.

                                      We recommend that FNSRO (1) recover the
  KEY RECOMMENDATIONS                 cited excessive claims of $1,280,152 for
                                      FY 2000 and $1,872,579 for FY 1999;
                                      (2) provide general guidance for establishing
         and claiming costs; (3) review the criteria that the State is using for
         reporting positions offered and filled and require development of workfare
         sites; and (4) ensure during the management evaluation process that
         adequate records are established, and the claimed costs are supported.

                                  In its March 31, 2002, written response to the
     AGENCY RESPONSE              draft report, FNSRO was in general
                                  agreement       with    the    findings    and
                                  recommendations.             However,       for
         Recommendation No. 1, FNS agreed with only a portion of the
         recommendation. Consequently, to facilitate the management decision
         and resolution process, we revised Recommendation No. 1 into two
         recommendations.    Therefore, the recommendation numbers in the
         agency response, shown in exhibit D, does not correspond to those in our
         final report.




USDA/OIG-A/27601-12-At                                                          Page ii
                                    Our position for each recommendation is
        OIG POSITION                presented in the relevant sections of the report
                                    for each finding.          We agreed with
                                    management decisions for Recommendations
          Nos. 3, 8, and 12, and asked for additional information on the remaining
          recommendations.




USDA/OIG-A/27601-12-At                                                      Page iii
                                      TABLE OF CONTENTS


EXECUTIVE SUMMARY ................................................................................................. i
   RESULTS IN BRIEF .................................................................................................... i
   KEY RECOMMENDATIONS....................................................................................... ii
   AGENCY RESPONSE ................................................................................................ ii
   OIG POSITION........................................................................................................... iii
INTRODUCTION............................................................................................................. 1
   BACKGROUND .......................................................................................................... 1
   OBJECTIVES.............................................................................................................. 3
   SCOPE ........................................................................................................................ 3
   METHODOLOGY ........................................................................................................ 3
FINDINGS AND RECOMMENDATIONS ........................................................................ 4
CHAPTER 1.................................................................................................................... 4
TENNESSEE DID NOT HAVE ADEQUATE CONTROLS OVER REIMBURSABLE
COSTS AND CLAIMED EXCESSIVE FEDERAL FUNDS FOR PROGRAM
ADMINISTRATION ......................................................................................................... 4
   FINDING NO. 1 ........................................................................................................... 4
   RECOMMENDATION NO. 1 ....................................................................................... 6
   RECOMMENDATION NO. 2 ....................................................................................... 7
   RECOMMENDATION NO. 3 ....................................................................................... 8
   FINDING NO. 2 ......................................................................................................... 10
   RECOMMENDATION NO. 4 ..................................................................................... 16
   RECOMMENDATION NO. 5 ..................................................................................... 17
   RECOMMENDATION NO. 6 ..................................................................................... 17
   FINDING NO. 3 ......................................................................................................... 18
   RECOMMENDATION NO. 7 ..................................................................................... 20
   RECOMMENDATION NO. 8 ..................................................................................... 22
CHAPTER 2.................................................................................................................. 23
FNS’ OVERSIGHT WAS NOT ADEQUATE FOR EVALUATING COSTS AND
ENSURING THAT FUNDS HAD BEEN USED FOR PROPER PURPOSES ............... 23

USDA/ OIG-A/27601-12-At                                                                                                Page iv
                                                   OFFICIAL DRAFT
   FINDING NO. 4 ......................................................................................................... 23
   RECOMMENDATION NO. 9 ..................................................................................... 25
   RECOMMENDATION NO. 10 ................................................................................... 26
   FINDING NO. 5 ......................................................................................................... 27
   RECOMMENDATION NO. 11 ................................................................................... 28
   RECOMMENDATION NO. 12 ................................................................................... 29
EXHIBIT A – SUMMARY OF MONETARY RESULTS ................................................. 30
EXHIBIT B – STATISTICAL SAMPLING PLAN........................................................... 31
EXHIBIT C – COUNTY EMPLOYEES RESPONSES ON TOTAL TIME SPENT
SERVING E&T CLIENTS.............................................................................................. 33
EXHIBIT D – FNS REGIONAL OFFICE RESPONSE TO DRAFT REPORT................ 34
ABBREVIATIONS......................................................................................................... 39




USDA/OIG-A/27601-12-At                                                                                             Page v
                             INTRODUCTION

                                     The Food Stamp (FS) Program allows low-
        BACKGROUND                   income households the opportunity to buy
                                     food necessary for their nutritional well-being.
                                     Monthly benefits are based on income, assets,
          and employment-related eligibility requirements. State and local welfare
          offices, with the Federal Government providing over-sight and funding,
          operate the program.

           The Food Security Act of 1985 required each State to implement an
           Employment and Training (E&T) Program to ensure that FS recipients are
           involved in a meaningful work-related activity that will eventually lead to
           paid employment and a decreased dependency on assistance programs.
           States may choose to operate one or more components as part of their
           E&T Program. Components may consist of job search, job search
           training, self-employment activities, workfare, vocational, and basic
           education training. States may contract components with private-for-profit
           and nonprofit organizations such as employment agencies, training
           contractors, and local community-based nonprofit organizations.

           The Food and Nutrition Service (FNS) of the U.S. Department of
           Agriculture administers the program through agreements with State
           agencies (SA). States receive 100-percent, federally funded grants for
           E&T Programs. If a State exceeds all of it’s 100-percent grant, FNS will
           match dollar-for-dollar the amount that the State spends of its own funds.
           The Balanced Budget Act (BBA) of 1997 provided appropriated
           unmatched grant funds for fiscal years (FY) 1998 through 2002. Total
           available funds were $242 million in FY 1999, $330 million in FY 2000,
           and $426 million in FY 2001. Tennessee had available $8.6 million in
           FY 1999; $6.1 in FY 2000; and $8.0 million in FY 2001.

           The E&T process begins when an application for FS benefits is received.
           Unless otherwise exempted, all FS households are required to register for
           work. Work registrants form a pool from which States assign participants
           to their E&T Program. The SA must limit FS benefits to 3 months in a
           3-year period for able-bodied adults without dependents (ABAWD) who
           are not working or participating in a work program for 20 hours or more
           each week, or were not participating in an E&T Program.




USDA/OIG-A/27601-12-At                                                        Page 1
           Individuals are exempt from this requirement if they are:

           •     under 18 or over 50 years of age;

           •     a parent or other member of a household with responsibility for a
                 dependent child;

           •     medically certified as physically or mentally unfit for employment,
                 pregnant; or

           •     already exempt from the work requirements under existing
                 provisions.

           Also, the work requirement may be waived for those ABAWD's who live in
           an area with an unemployment rate over 10 percent or an area with an
           insufficient number of jobs. In addition, FNS allows States to exempt
           15 percent of their ABAWD's, as the State deems necessary.

           FNS established reimbursement rates for servicing ABAWD's at
           $175 for every E&T slot filled and $30 for each offer of an E&T slot for
           FY 1999 through FY 2001. States could apply for FNS’ study of
           alternatives to the nationally prescribed fixed reimbursement rates
           (alternative reimbursement method) in which reimbursement is not limited,
           but participating States had to pledge to provide an opportunity to all
           ABAWD's and establish management controls to ensure that ABAWD's
           are served.

           The BBA of 1997 required that 80 percent of the Federal E&T funds be
           spent on ABAWD's. The remaining 20 percent could be spent on
           non-ABAWD work activities or E&T activities that did not meet the
           requirements of the Act, such as job search. States could expend some
           or all of the 20-percent allocation. The 20-percent allocation could be
           spent at any point during the year and is not subject to the reimbursement
           rates.

           The FS Reauthorization Act of 2002 removed the requirement that
           80 percent of funds be spent on ABAWD's; however, it did authorize
           additional funding for States that pledge to serve ABAWD's. Also, the Act
           eliminated the reimbursement rates for offered and filled slots.

           In FY 2000, Tennessee was approved for reimbursement under FNS’
           alternative reimbursement method. The State’s Department of Human
           Services (DHS) administered the program and contracted with the
           Department of Labor and Workforce Development (DLWD) to provide
           E&T work and training components. In June 2000, FNS contracted



USDA/OIG-A/27601-12-At                                                       Page 2
           directly with DLWD to administer the program while DHS continued to
           identify clients to be served.

                                    The objective of the audit was to determine if
         OBJECTIVES                 the FNS Regional office (FNSRO) Atlanta,
                                    Georgia, had sufficient controls over the
                                    program to monitor State compliance with
          Federal guidelines and that the State was satisfactorily performing their
          E&T responsibilities.

                                         The Office of Inspector General (OIG)
            SCOPE                        performed the audit work at the FNS National
                                         office in Alexandria, Virginia; FNSRO Atlanta,
                                         Georgia; and the State of Tennessee. Our
           review of FY 1999 and FY 2000 program in Tennessee included the
           Tennessee DHS, DLWD, and statistically selected county offices. We
           statistically evaluated the time DLWD employees charged to the program.
           Fieldwork was performed from April 2001 to February 2002. The audit
           was conducted using generally accepted government auditing standards.

                                       We accomplished our audit objectives by:
       METHODOLOGY

           •     Review of the FS Act of 1977, including amendments, and Federal
                 regulations related to the E&T Program.

           •     Interviews with FNS officials and review of program policies,
                 procedures, and pertinent correspondence.

           •     Assessment of FNS’ monitoring of States’ fiscal and program
                 management related to E&T activities.

           •     Review of external and internal reports, studies, and performance
                 reports.

           •     Review of SA’s E&T plan of operation.

           •     Review of SA’s system for allocating costs to the E&T Program.

           •     Review of SA’s E&T Program accounting records, reports, and
                 expenditures.

           •     Statistical test of employee’s time charged to the program at the
                 State and county levels. Details of our statistical sampling plans
                 and projection results are shown in exhibit B.


USDA/OIG-A/27601-12-At                                                         Page 3
            FINDINGS AND RECOMMENDATIONS


                         TENNESSEE DID NOT HAVE ADEQUATE
                      CONTROLS OVER REIMBURSABLE COSTS AND
  CHAPTER 1
                       CLAIMED EXCESSIVE FEDERAL FUNDS FOR
                             PROGRAM ADMINISTRATION

            Tennessee did not have adequate controls over reimbursable E&T cost
            claims. In FY 1999, the SA counted letters sent to ABAWD as offered
            slots. The SA claimed 76,016 offers for FY 1999 but actually appraised
            5,575 individuals. This overstated ABAWD offers by 70,441 and resulted
            in excessive cost reimbursements. In FY 2000, the SA was no longer
            limited to being reimbursed based on slots but under an alternative
            reimbursement rate where there was no limit on spending levels. For
            FY 2000, the SA claimed expenses in excess of costs because employees
            charged time based on budgeted time instead of time spent serving E&T
            participants. Also, workfare slots were not available to allow job search
            activities for ABAWD's. As a result of these inadequate controls, the State
            was reimbursed $3,151,731 for cost claims in excess of the actual
            operating costs in FY's 1999 and 2000.

                                     Tennessee reported excessive FY 1999
       FINDING NO. 1                 ABAWD participation by counting call-in letters
                                     as offered slots.         FNSRO approved
                                     orientation/assessment call-in letters as offers
   TENNESSEE OVERCLAIMED             provided States include job search and work
   $1.9 MILLION IN FY 1999 BY        assignments, with reporting dates and times,
     OVERSTATING OFFERS              in the letter. However, we found that specific
                                     work assignments were generally not listed
           because the State had not developed workfare sites. DLWD only
           assessed 5,575 individuals but they claimed 76,016 offers.           This
           overstated ABAWD offers by 70,441 and resulted in excess cost
           reimbursements of $1,872,579 for FY 1999.

            For FY 1999, FNS established funding caps for E&T slots. The caps
            limited SA's reimbursement claims to $30 for offered slots and $175 for
            filled slots. FY 1999 was the first year that FNS established these caps.
            In FNS’ questions and answers dated April 23, 1998, FNS established that
            an offer must inform ABAWD of the location of the work assignment, the
            date, and time to report. Also, in an FNS memorandum to regional
            administrators dated February 20, 1998, FNS defined an offered slot as a

USDA/OIG-A/27601-12-At                                                         Page 4
           bona-fide workfare or training opportunity that is made available to
           ABAWD, but the participant either refuses the assignment or does not
           report.

           DHS sends a list of individuals between the ages of 18 and 50 to DLWD.
           From this list, DLWD selects those individuals coded as ABAWD's, and
           sends letters that establish an appointment with an interviewer. During
           the face-to-face meeting, the interviewer completes an appraisal of
           ABAWD’s education and work experience to determine which component
           or activity to assign ABAWD (i.e., job search, workfare, training, or
           education). The “call-in” letters do not offer a bona-fide workfare or
           training slot, but only established an appointment with an interviewer.
           Interviewers are not aware of the needs of the participant until the
           appraisal. Also, workfare sites had not been developed and therefore the
           location, date, and time to report could not be included in the letters (see
           Finding No. 3).

           For FY 1999, Tennessee counted one offered slot for each letter sent,
           rather than counting participants appraised and offered a component. The
           State reported on Program Activities Report, Form FNS 583 that
           76,016 offers were made. However, the State's internal report (FS
           ABAWD Report) showed the total number of participants’ appraised for FY
           1999 as only 5,575 (ABAWD offers should not be higher than appraised).
           The internal report also showed 5,031 ABAWD's in filled slots with 3,512
           of these ABAWD's in job search. In FY 1999, the State did not have
           workfare contracts in place before establishing job search. Thus, the
           3,512 job search slots would not qualify for reimbursement.

           The 76,016 offers to ABAWD's are greater than the 11,591 potential
           ABAWD's it planned on serving as shown in the SA’s FY 1999 State Plan.
           Also, DLWD, as of December 4, 2001, appraised the individual prior to
           determining if the participant is counted as an “offer” or a “filled”. In
           FY 2001, DLWD reported only 2,856 offered slots for the first 2 quarters.

           The State reported on Form FNS 583, for FY 1999, that the cost of serving
           ABAWD's (80-percent funding) was $2,305,654. However, based on the
           DLWD internal reports and FNS’ reimbursement rates, of $30 for offered
           and $175 for filled slots, the FY 1999, 80-percent funding is calculated
           below:




USDA/OIG-A/27601-12-At                                                         Page 5
           Table 1 ABAWD Funding
                               State                        Slot Cap
               Description   Reports                          Rate                 Totals
            Offered Slots          5,575                           $30              $167,250
            Filled Slots*          1,519                          $175               265,825
            Funds Earned                                                            $433,075
           * 5,031 slots were reported, but 3512 of the filled slots were job search.

           The State over-claimed reimbursement for FY 1999 by $1,872,579 as
           follows:
                    Total Expenditures for ABAWD's            $2,305,654
                         Less funds earned                       433,075
                         Overpayment                          $1,872,579

           FNSRO’s management evaluation (ME) of the DLWD program in
           November 2000, did not disclose the inflated ABAWD participation.
           However, the review did note that DLWD’s process for compiling
           information for the Form FNS 583 was “an extremely complex manual
           process.” This factor likely limited FNSRO’s success in identifying the
           inflated costs and related excess cost reimbursements.

           Our original draft report contained one recommendation to recover
           $1,872,579 in excessive Federal funds. Based on FNS's response, we
           changed the one recommendation into two different recommendations
           since FNS's response agreed with part but not all of the recommendation.
           Therefore, recommendation numbers in FNSRO's response will not relate
           to our recommendation numbers.

                                             Recover the $1,257,979 in excessive Federal
   RECOMMENDATION NO. 1                      funds the State claimed in FY 1999 by
                                             reporting excessive ABAWD offers.


           FNS Response

           In it's March 31, 2003, response, FNS concurred "* * * with this
           recommendation to the extent that excessive funds will be recovered from
           the [SA]. * * * With OIG concurrence, FNS will bill the [DHS] for
           $1,257,979."

           OIG Position

           We agree with FNS in recovering the excessive Federal funds. To reach
           management decision, FNS should provide a copy of the bill for collection
           and support that the amount has been entered as a receivable on the
           agency's accounting records.


USDA/OIG-A/27601-12-At                                                                    Page 6
                                       Recover the $614,000 (3,512 x $175) in
   RECOMMENDATION NO. 2                unsupported Federal funds the State claimed
                                       in FY 1999 by reporting ABAWD filled slots
                                       when only job search activities were
           performed.

           FNS Response

           In its March 31, 2003, response, FNS stated:

                 * * * FNS concurs with this recommendation to the extent
                 that excessive funds will be recovered from the [SA]. We
                 are concerned that there may be some misunderstanding
                 about whether the State is entitled to $614,600 in
                 reimbursement for filled ABAWD slots. OIG states that
                 3,512 slots claimed by the [SA] are not subject to Federal
                 reimbursement because the [SA] did not have workfare
                 contracts in place prior to the beginning of the component,
                 which consists of job search and job search training
                 activities; however, Federal regulations do not require that
                 workfare contracts exist prior to commencing the
                 component. 7 CFR 273.7(d)(1)(ii) states that ". . . Lastly, a
                 [SA] may establish a job search period of up to 30 days
                 following initial certification prior to making a workfare
                 assignment. This job search activity is part of the workfare
                 assignment and not a job search 'program.' Participants are
                 considered to be participating in and complying with the
                 requirements of workfare, thereby meeting the work
                 requirement for ABAWDs." The report did not identify any
                 instance in which a client completed the job search phase of
                 the workfare component, wanted to continue participation in
                 the program with a workfare assignment, and the [SA] was
                 unable to fulfill its obligation. Oral clarification of this issue
                 was shared with OIG at two meetings conducted with
                 FNSRO staff on October 1, 2002 and January 21, 2003.
                 Written concurrence with this regulatory interpretation was
                 provided by the FNS National office and was provided to
                 OIG on February 6, 2003.

                 Including reimbursement for these filled slots would reduce
                 the [SA's] monetary liability by $614,600.         With OIG
                 concurrence, FNS will bill the [DHS] for $1,257,979.




USDA/OIG-A/27601-12-At                                                            Page 7
           OIG Position

           FNSRO officials provided an email as written evidence of concurrence by
           a FNS National Office official that stated, "If Tennessee's workfare
           program is organized under 7 CFR 273.7(f)(1)(iii), then OIG is correct in
           saying that there should be contracts with job providers. If Tennessee's
           workfare program is organized under 7 CFR 273.7(f)(1)(iv), then the
           Southeast Regional Office is correct that no requirement for contract
           applies." However, it is unclear why contracts would be required under
           the optional workfare program as defined in 7 CFR 273.7(f)(1)(iii), and not
           under a regular workfare program. In addition, it was also unclear whether
           Tennessee was operating the regular or optional workfare program since
           this issue was not specifically addressed in their State Plan of Operation.
           FNSRO officials stated that Tennessee's State Plan of Operations did not
           specify an optional workfare program and thus, they considered it to be a
           regular workfare program.

           To reach management decision on this recommendation, FNSRO officials
           should request and obtain an official written clarification from the FNS
           National Office on whether contracts or agreements with job providers are
           required to establish a valid workfare program. Also, written clarification
           should be obtained on whether Tennessee could establish a 30-day job
           search period prior to commencing any component other than workfare,
           and whether this action constitutes a job search program. The Office of
           the General Counsel (OGC) concurrence should be obtained on any
           written clarification. Lastly, FNS officials should review Tennessee's job
           search activities and determine whether its reimbursed claims were in
           accordance with regulations.       If not, FNS should bill the SA for
           $614,600 for FY 1999's excessive reimbursed costs.

                                       Review the criteria that the State is using to
   RECOMMENDATION NO. 3                report ABAWD participation to ensure that
                                       offers are not claimed unless a bona-fide
                                       workfare or training slot is available.

           FNS Response

           In its March 31, 2003, response (see exhibit D, formerly Recommendation
           No. 2), FNS stated:

                 * * * FNS concurs with the recommendation in part. FNSRO
                 cannot concur in entirety because we are concerned that
                 regulations and policy regarding workfare contracts was not
                 clarified in enough detail for OIG. Current regulations do not
                 require State agencies to have workfare contracts in place
                 prior to commencing that component; therefore, we cannot


USDA/OIG-A/27601-12-At                                                        Page 8
                 require that States have contracts and agreements in place
                 prior to approving E&T plans or authorizing E&T funding.
                 We concur with OIG that it is desirable for States to have
                 agreements and contracts in place before commencing the
                 component; therefore, we will strengthen our review of E&T
                 plans to include a more vigorous examination of States'
                 efforts in this area, and will follow up with States where
                 potential weaknesses in this area are noted.

                 FNSRO is in the process of revising the checklist for
                 reviewing E&T State Plans to ensure that the State has
                 provided a detailed explanation of the offer and placement
                 procedure for ABAWDs. We will also review the State's
                 procedures for counting a slot as offered and filled, and
                 ensure that a detailed explanation of how clients
                 matriculated through components, particularly Workfare, is
                 provided. As indicated in the response to Recommendation
                 No. 1, the State is not required by law to have Workfare
                 contracts and agreements in place prior to an ABAWD
                 beginning the component; however, FNSRO will ensure that
                 the E&T Plan clearly outlines what the State how the State
                 will process those ABAWDs placed in the Workfare
                 component when there are not agreements and contracts
                 established beforehand. These areas for E&T Plan review
                 will be incorporated into the current checklist by August 1,
                 2003, so that the new checklist can be utilized for the review
                 of FY 2004 State Plans. A copy will be provided to OIG no
                 later than August 1, 2003.

                 FNSRO will also revise the current E&T review instrument to
                 ensure that the State is accurately reporting offered and
                 filled slots. The questions on the review instrument will
                 require comparative analysis of internal State reports, data
                 submitted on the FNS 583 report, and estimates projected
                 on the State plan. The review instrument will be revised no
                 later than April 15, 2003, so that it can be utilized for the E&T
                 review schedule in Tennessee in FY 2003.

           OIG Position

           We agree with the management decision. The portion of FNS's response
           regarding workfare contracts will be resolved in Recommendations Nos. 1
           and 7.




USDA/OIG-A/27601-12-At                                                           Page 9
                                      Tennessee DLWD claimed reimbursement for
      FINDING NO. 2                   E&T Program expenses in excess of actual
                                      costs of operating the program. The State did
                                      not have adequate documentation to support
  TENNESSEE’S FY 2000 COST            actual costs. DLWD employees charged time
 REIMBURSEMENTS WERE NOT              according to budgeted hours instead of actual
 SUPPORTED AND EXCEEDED               hours spent serving E&T participants.
       ACTUAL COSTS                   Therefore, the E&T Program was charged a
         disproportionate share of costs by employees in multi-program county
         offices. The SA had not conducted studies or periodically monitored
         participation to determine proper staffing levels to make adjustments, as
         applicable. For FY 2000, Tennessee claimed $2,468,348 for expenses
         incurred in operating the program. However, our review disclosed that the
         State over-claimed costs of $1,280,152.

           Title 7 Code of Federal Regulations (CFR) 277, (appendix A) provides
           principles for determining allowable cost for administering the FS Program
           by the SA. The cited cost principles are designed to assure that all
           federally-assisted programs bear their fair share of costs recognized under
           these principles. The principles provide that a SA is responsible for the
           efficient and effective administration of the program through the
           application of sound management practices. Profit by the State or other
           increment above cost is not allowed.

           The State did not have adequate records to support their claims for
           salaries, benefits, and other administrative expenses for the E&T
           Program. For FY 2000, DLWD claimed $2,468,348 in costs (see table 2):

           Table 2
                  Administrative cost Item      Total claimed
              Direct personal services                $ 1,184,567
              Other personal services                     188,493
              Personal benefits                           594,521
              Non-personal services                       369,315
              Other Administrative                        131,452
                    Total cost                        $ 2,468,348

           For direct personal services, the State established 60 full-time equivalent
           (FTE) staff positions for the E&T Program. However, it did not maintain
           adequate records to document that the FTE’s charged to the program
           were necessary and reasonable for the number of participants served.
           DLWD's Time and Attendance procedures state that proper hours should
           be entered on the labor distribution screen based on how the employee
           spent his or her day. However, employees generally charged time as
           budgeted and did not document the relationship of time used to
           participants served.



USDA/OIG-A/27601-12-At                                                       Page 10
           Employees in multi-program county offices worked other programs such
           as unemployment insurance claims, thus additional controls should have
           been established to ensure that the E&T Program was not charged for
           costs that benefited other programs. In addition, the State did not have
           studies, performance measures, baselines, or other means to determine
           hours needed or to justify the FTE’s and related reimbursement claims.

           States were required by the BBA of 1997 to document funds spent for
           ABAWD and non-ABAWD categories. To comply with the law, the State
           should document the actual time (hours) that employees use serving each
           category of individual participants. Such documentation would serve to
           substantiate the SA's reimbursement claims. Because the SA did not
           have accounting methods to document or capture the hours or money
           spent on each population, the SA arbitrarily reported $2.3 million
           (92 percent) spent on ABAWD's and $194,345 (8 percent) spent on non-
           ABAWD's.

           Because the DLWD did not have adequate documentation that FTE’s
           charged were necessary and reasonable, we reviewed a random sample
           of 120 employee time charges out of 1,181 time charges by employees in
           FY 2000. Out of 95 counties in Tennessee, E&T Programs are operated
           in 61 counties. The 120 employees worked at the State office and
           40 different county offices, of which we visited 10 and received records by
           mail from 30 offices.

           Twenty out of 23 county employees interviewed stated that the time spent
           appraising and enrolling a client took from 30 minutes to an hour.
           However, the State coordinator said if employees served clients correctly,
           it should average two hours. Therefore, we used the two-hour timeframe
           to give the State the benefit of the doubt. (See exhibit C.)

              •   Retrieving a list from the DHS computer system (online).
              •   Sending the participant a preprinted form letter with a date and
                  time for an interview.
              •   Providing the participant with a face-to-face meeting that includes
                  an appraisal of job skills, development of an employability plan,
                  and letter for the participant to take to potential employers. (The
                  letter is to be completed and returned to DLWD as verification of
                  the participant's efforts).
              •   Handling referrals and followup for job search, workfare, education,
                  and training. However, staff did not indicate that these activities
                  involved a substantial amount of time. According to the State
                  internal reports, in FY 2000, 4,488 ABAWD's and
                  4,750 non-ABAWD's were in E&T activities but only 57 had been
                  placed in workfare and 325 in jobs. The remaining participants



USDA/OIG-A/27601-12-At                                                       Page 11
                 were in job search and related activities, which was not staff
                 intensive.

           The 120 sampled charges of $118,038 were based on employee claims of
           8,266 hours used serving E&T participants. Overall, DLWD claimed
           83,839 staff hours, costing $1,184,567 for placing 4,488 ABAWD's and
           4,750 non-ABAWD's in E&T activities.

           Based on the projection of the selected time charges, we concluded that
           the State overcharged the E&T Program for 52,643 staff hours or
           $739,012 (point estimate) or 44,052 staff hours or $614,385 (lower
           confidence limit) in direct personal services (see table 3). Our calculations
           for the projection allowed staff 2 hours for serving each participant
           (ABAWD and non-ABAWD). Hours were counted as excessive only when
           the time charges exceeded 2 hours per participant. In addition, because
           of the variability of their duties, we did not count management staff
           charges as excess hours at county service locations or at the State
           headquarters (see exhibit B).

           DLWD charged administrative costs to the E&T Program in proportion to
           salary costs. Therefore, we used the percentage of over-claims disclosed
           in the sample (51.86 percent) to calculate the total excess cost
           reimbursement for Tennessee as follows:

           Table 3
                                            Total
             Administrative cost Item       claimed     Multiplier   Excess cost
             Direct personal services
             (projected)                    1,184,567      N/A         $614,385
             Other personal services          188,493       .5186         97,752
             Personal benefits                594,521       .5186        308,318
             Non-personal services            369,315       .5186        191,526
             Other Administrative             131,452       .5186         68,171
                   Total excess cost                                  $1,280,152

           Over claims resulted because DLWD initially assigned an excessive
           number of staff (60 FTE’s) based on their budget but did not adjust staffing
           downward when participation did not materialize. In addition, the SA had
           not conducted studies or periodically monitored participation to determine
           correct staffing levels and make adjustments as applicable. SA officials
           were unable to explain how the budgeted FTE's were computed.

           Also, the State generally did not enroll participants in more staff intensive
           activities such as workfare and other employment and training activities,
           which would have required contract development and staff followup.
           Instead the States’ E&T activities concentrated on job search that required
           minimal staff time. Job search activities comprised 81% of all components
           that clients were placed in. The clients were appraised and given a blank

USDA/OIG-A/27601-12-At                                                         Page 12
           form to complete for contacts made with prospective employers. The
           majority of all job search clients never returned to DLWD after the first
           contact.

           The following table shows examples of disparities between monthly
           numbers of participants served and time charged by individual workers.

           TABLE 4
           Employee
            / Month                   Non      Total    Time       Hours                    Employee
            FY 2000       ABAWD's   ABAWD's   Served   Allotted   Charged   Difference     Comments
           A / March         2         3         5        10        69          59       Multiple programs
           B / June          2         0         2        4        116.1       112.1     Multiple programs
           C/ March          2         11       13        26       148.1       122.1     Multiple programs
                                                                                                Dedicated -
                                                                                           Stated no other
           D / April         6         1        7        14        119.5      105.5                  duties
                                                                                                Dedicated -
                                                                                           Stated no other
           E / March         0         0        0         0        166.3      166.3                  duties


           Two examples where employees charged excessive time to the E&T
           program follow:

           •           An employee charged 166 hours to the E&T program for one
                       month, but did not see any clients for that month.            When
                       interviewed, the employee stated that she worked at least 8 hours
                       on preparing a class. Also, the employee stated that she had
                       interviews established and a course to instruct, but nobody showed
                       up for the course or interviews. The employee added that no other
                       E&T duties were performed during the month even though 166
                       hours were charged to the program. Thus, the State charged FNS
                       for nearly an entire month where no work was performed.

           •           An employee in a multi-county office charged 3 days a week for the
                       E&T program, but stated that she only spent 12 hours a week
                       working E&T and the rest on unemployment claims. Because she
                       was an employee in a multi-program office, she often would fill-in
                       for other employees. However, she never adjusted her time to
                       show the correct program in which she was working. Therefore the
                       State charged FNS for days where the employee was working on
                       other programs.

           We questioned a State official regarding the disparities between
           employees as shown in Table 4. The State official stated that the staff
           must be available to respond to the letters mailed to clients and had the
           planned participation showed up, the employees would have serviced the
           clients.




USDA/OIG-A/27601-12-At                                                                     Page 13
           The number of cases that the average caseworker served, of both
           ABAWD's and non-ABAWD's, was about 10 clients a month in the major
           metropolitan counties. Caseloads in smaller counties where employees
           worked in multiple programs were much larger than the metropolitan
           counties that had dedicated employees devoted solely to the E&T
           program. The table below shows the average monthly cases per
           employee for the four major Tennessee counties and three smaller
           counties:

           TABLE 5
                                       Per Employee1                               Total
                                         Allotted   Excessive                       Idle
                               Average   Hrs./ Mo.   Hrs./Mo.                      Hrs./
                               Monthly     (2 per      (160          Total          Mo.
             County            Clients    client)    Allotted)     Employees1
           Davidson2              9          18         142            8           1,136
           Shelby2                4           8         152           14           2,128
           Hamilton2             12          24         136            6            816
           Knox2                 13          26         134           5.8           777
           Hamblen               19          38         122            1            122
           Montgomery            74         148         12             2             24
           Madison               25          50         110            1            110
           1
               FTE's budgeted in FY 2000.
           2
               Major Metropolitan County

           The SA's own data shows excessive time was charged to the E&T
           program. DLWD obtained data about staff time charges during its
           FY 2001 on-site evaluations as shown in Table 6. The results of their
           reviews support our statistical findings that staff were using the assigned
           FTE’s without regard to the number of participants served. The following
           schedule shows data from the reviews in Tennessee counties. The
           number of months reviewed varied from county to county and ranged from
           one to six months. The data in Table 6 is for our review period.




USDA/OIG-A/27601-12-At                                                       Page 14
           TABLE 6
                                                                                                                     Average
                                                               Number of                                              Time                                     Excessive
                                     Staffing                  ABAWD's                                              Charged to              Allotted Hrs.        Hours
             ABAWD                  Allocations              responding to               Total Time                  Serve an                per State        claimed per
            Counties                     *                       letters                  Charged                   ABAWD **                Coordinator         ABAWD
             Bedford                0.40 FTE's                     36                   479.40 hrs                     13.32                      2              11.39
             Warren                 0.40 FTE's                     28                   372 hrs                        13.29                      2               11.29
              Tipton                0.20 FTE's                     53                   297 hrs                         5.60                      2                3.6
              Carter                0.20 FTE's                     33                   180.8 hrs                       5.48                      2                3.48
              Smith                 0.20 FTE's                      3                   161.5 hrs                      53.8                       2               51.8
             Weakly                 0.20 FTE's                     23                   172.5 hrs                       7.5                       2                5.5
            Williamson              0.20 FTE's                      4                   63.60 hrs                      15.90                      2               13.9
             Dickson                0.20 FTE's                      5                   43.7 hrs                        8.74                      2               6.74
             Fayette                 0.2 FTE's                      0                   21.5 hrs                       21.5                       2               19.5
             Sumner                 0.60 FTE's                     11                   221.5 hrs                      20.14                      2              18.14
            Rutherford              0.50 FTE's                      8                   30.5 hrs                        3.81                      2                1.81
            Robertson               0.20 FTE's                      6                   12 hrs                          2.0                       2                  0
           * 1 FTE equals about 160 HRS per month
           ** Average Time Charged to Serve an ABAWD is the average for the period covered by the review (Source – DLWD on-site evaluations).




           State officials said that FTE staffing levels were established during the
           yearly E&T budget process. FTE's were based on the anticipated
           program level at each service location. State officials said that there was
           no periodic comparison of staffing levels to participation and that FTE
           staffing levels were not considered again until the next budget. Also,
           staffing levels and participation were not monitored during the State
           conducted reviews except to identify locations that were not serving
           enough participants in order to encourage staff to increase participation.

           FNS should not have approved the alternative reimbursement method in
           FY 2000, since the E&T plan showed no additional controls necessary to
           serve all ABAWD's compared to the FY 1999 plan. The plan showed that
           the E&T Program consisted primarily of job search activities and did not
           show any planned increases in service to clients or in participation from
           the FY 1999 plan. Also, the State's plan did not address controls to
           ensure that adequate record keeping systems would be used and claimed
           costs would be necessary and reasonable. FY 2000 data shows that total
           ABAWD participation decreased by 364 participants from 4,852 in
           FY 1999 to 4,488 in FY 2000.

           If the State had been limited to the slot cap rate method for FY 2000, the
           State would have earned and received only $932,580. Therefore, the
           calculated overpayment to the State using this method would be
           $1,341,423 as shown in Table 7.




USDA/OIG-A/27601-12-At                                                                                                                                      Page 15
           Table 7
                                     State            Slot Cap
                Description         Reports             Rate            Totals
             Offered Slots               4.906               $30         $147,180
             Filled Slots                4,488              $175          785,400
             Funds Earned                                                $932,580

                     Total Expenditures for ABAWD's                    $2,274,003
                          Less funds earned                               932,580
                          Overpayment                                  $1,341,423

           Also, DLWD provided only 47 percent of the services contracted for by
           DHS. The FY 2000 contract required DLWD to place 19,260 food stamp
           clients in E&T components. Giving DLWD credit for each ABAWD and
           non-ABAWD slot filled, including job search, it only placed 9,238 food
           stamp clients in components during FY 2000. The contract provided for a
           maximum of 60 field staff ($2,776,511) and other expenses of
           ($356,600) totaling $3,093,111. The majority of the amount budgeted for
           staff was 3,600 filled workfare slots ($1,868,962) and 1,800 life skills
           training participants ($609,289) totaling $2,478,251. However, only
           57 participants started workfare and 371 started life skills training.

           The DLWD did not provide the level of service that would justify or earn
           the $2.4 million reimbursement claimed under the alternative
           reimbursement method. In addition, it did not fulfill the participation level
           requirements of the contract with DHS. Instead of placing participants in
           workfare as required in the contract and the E&T plan, it placed 81 percent
           of all E&T participants in low-cost job search. Of the 3,620 ABAWD's
           placed in job search, only 57 (1.6 percent) actually went into workfare.
           The State continued the alternative reimbursement method for FY's 2001
           and 2002. The State continued to use the same accounting controls over
           E&T claims that were used in FY 2000. FY 2001 expenditures, as
           reported on the SF-269, totaled $2.7 million and budgeted expenditures
           for FY 2002 totaled $4.3 million.

                                       Recover      the    cited    $1,280,152    of
   RECOMMENDATION NO. 4                FY 2000 Federal funds that the State claimed
                                       for excessive reimbursable program costs.

           FNS Response

           In its March 31, 2003, response (see exhibit D, formerly Recommendation
           No. 3), FNS stated:

                 * * * FNS will bill the [SA] $1,280,152. However we will
                 provide the [SA] an opportunity to submit additional

USDA/OIG-A/27601-12-At                                                         Page 16
                 documentation which may alter the amount of the claim. If
                 the State chooses to submit additional documentation, we
                 will review that as a part of our FY 2003 review of E&T costs.

           OIG Position

           To reach management decision FNS should provide a copy of the bill for
           collection and support that the amount has been entered as a receivable
           on the agency's accounting records.

                                   Perform a comprehensive review of the
   RECOMMENDATION NO. 5 State’s allocation procedures for E&T
                                   activities, validate its FY 2001 and FY 2002
                                   E&T cost claims ($2,665,565 in FY 2001 and
        budgeted for $4,337,061 in FY 2002) and recover ineligible costs charged
        to E&T activities.

           FNS Response

           In its March 31, 2003, response (see exhibit D, formerly Recommendation
           No. 4), FNS stated:

                 * * * FNS will conduct a Financial Management Review at
                 the [SA] during the month of July 2003. The scope of this
                 review will include the validation of E&T costs claimed in FY
                 2001 and FY 2002. We will also review the [SA]'s cost
                 allocation procedures. Any unallowable E&T charges cited
                 during the review will be recovered by FNS.

           OIG Position

           To reach management decision for this recommendation we need the
           results of the Financial Management Review, along with evidence of the
           billing and associated accounts receivable, if necessary.

                                      Require the SA to develop procedures and
   RECOMMENDATION NO. 6               controls to ensure the propriety of the costs
                                      allocated to the E&T Program and maintain
                                      documentation to support actual costs
           claimed.

           FNS Response

           In its March 31, 2003, response (see exhibit D, formerly Recommendation
           No. 5), FNS stated:



USDA/OIG-A/27601-12-At                                                       Page 17
                   * * * During our Financial Management Review in July 2003,
                   we will determine if the [SA] has procedures in place to
                   ensure the appropriateness of costs charged to E&T
                   activities. We will also determine if they have procedures for
                   maintaining documentation supporting E&T costs.              If
                   procedures are not in place, we will require the [SA to]
                   develop them.

            OIG Position

            To reach management decision for this recommendation, we need the
            results of the review along with evidence that requires the SA to develop
            additional procedures and controls.

                                   Tennessee had not developed workfare
     FINDING NO. 3                 contracts and related worksites to ensure that
                                   every ABAWD has a bona-fide work
                                   opportunity and a means of maintaining FS
TENNESSEE DID NOT ESTABLISH        benefits. Instead, the State focused on job
 WORKFARE CONTRACTS AND            search activities that cost the State less and
WORKSITES TO PROVIDE WORK          required less staff involvement than workfare,
      OPPORTUNITIES                training,    and      educational     activities.
        Nevertheless, the SA claimed that job search was tied to workfare and
        reported 23,234 offered and 3,677 filled workfare positions for FY 2000.
        We question whether there is an actual connection because the SA had
        not obtained contracts or agreements for worksites prior to the end of the
        30-day job search period. In addition, without workfare contracts or
        agreements, DLWD was not able to provide the level of service needed to
        serve ABAWD's and justify the costs claimed. For FY 2000, only
        57 ABAWD's were actually placed in workfare although the SA charged
        FNS almost $2.5 million for E&T services, it only placed 57 ABAWD's in
        the workfare.

            FNS policy provides that a slot is “filled” when a participant reports to a
            work or training site to begin his or her work activities. FNS' policy further
            provides that a slot is “offered” when a bona-fide workfare or training
            opportunity is made available to a participant (i.e., the participant is told to
            report to a worksite at a given date and time) but the participant either
            refuses the assignment or does not report.

            To meet the Personal Responsibility and Work Opportunity Reconciliation
            Act, FS work requirements, ABAWD's must be employed or participate in
            a qualified work activity or training program for an average of 20 hours per
            week or participate in and comply with a workfare program. Qualifying
            E&T activities include workfare, education, vocational training, the Job
            Training Partnership Act, and the Trade Adjustment Act Programs. Job

USDA/OIG-A/27601-12-At                                                            Page 18
           search was specifically excluded from the law.            However, FNS
           administratively determined that job search could count as a qualifying
           component if it occurs during the first 30 days of a workfare assignment.
           Title 7 CFR 273.22 provides that the SA may establish a job search period
           of up to 30 days prior to making workfare assignments. Further, FNS
           policy provides that the job search period is allowed only in workfare
           components that guarantee the participant a slot at the end of the 30-day
           job search period.

           The State’s FY 2000 E&T plan, which was approved by FNS, provides
           that staff will make a specific offer of participation and develop worksite
           agreements. However, we found that staff did not always follow the E&T
           plan. According to the plan:

           •     Staff will review availability of opportunities in the county project
                 prior to a “call-in”. The call-in letter (scheduling an appointment for
                 a face-to-face meeting with a DLWD employee) will make a specific
                 offer of participation to the individual ABAWD.

                 − During our review we determined the “call-in” letters sent to
                   participants did not contain a specific employer’s location, report
                   time or offer of workfare participation. The letters generally
                   identified the E&T office location and scheduled an appointment
                   to discuss the E&T Program opportunities.

           •     Staff will call-in eligible participants, perform individual
                 assessments, develop worksite agreements, and place and monitor
                 participants at the sites.

                 − Our review disclosed that the SA did not have workfare contracts
                   or agreements in place for all counties that were not exempted
                   from the work requirements, i.e., labor surplus or high
                   unemployment counties (un-waived counties). We found that
                   27 of 52 (52 percent) un-waived counties did not have a workfare
                   contract or agreement in place at any time during FY 2000. None
                   of these counties had any actual participation in workfare.

           We concluded that job search was not connected to workfare in
           Tennessee as required in the CFR 273.7 because there was no workfare
           contracts or agreements in place at over half of un-waived counties. In
           addition, the SA had not complied with its E&T plan and only
           57 participants actually began workfare in FY 2000. The SA claimed
           23,234 offered and 3,677 filled workfare slots. Of the 3,677 filled, the
           State counted 3,620 in job search and 57 slots for ABAWD's that reported
           to worksites.



USDA/OIG-A/27601-12-At                                                         Page 19
           For FY 1999, the State had not developed workfare contracts except for
           individual contracts for the 35 participants who actually began workfare.
           Nevertheless, the State claimed 56,360 offered workfare slots and
           3,604 filled workfare slots. The SA was operating under the slot cap rates
           in FY 1999 that allowed up to $30 for each offered position and $175 for
           each filled position.

           DLWD staff said that it was policy to develop workfare worksites for each
           participant that wanted to participate in workfare. Individual sites would be
           developed, even if no general site contracts were available. However,
           participants often agreed to participate in job search but would not show at
           the workfare site. Therefore, workers generally would not develop a
           workfare site contract, when a general contract was not already available,
           until they were sure that the participant actually wanted to participate in
           workfare. DLWD staff said that participation was low because the work
           was unpaid. During FY 2000, they said that they instructed all counties to
           develop general workfare site contracts in order to make sure the State
           was meeting requirements.

           FNSRO officials stated that they agreed that some clients did not want to
           participate, except for the first month of job search, because workfare was
           unpaid. Also, they said that many of the participants had just turned
           18, and would participate during the job search period because not much
           effort was required and then find a job on their own or quit the FS
           Program.

           The State’s FY 2001 E&T plan provided that job search activities were to
           be tied to workfare and that workfare contracts were to be developed.
           However, we did not note a significant increase in total numbers of
           contracts for FY 2001 over FY 2000. The need for additional contracts
           was also identified by the State-conducted FY 2001 program evaluation.

                                   Require the SA to develop workfare contracts
   RECOMMENDATION NO. 7 or agreements to ensure that participants
                                   have a bona-fide work opportunity and a
                                   means of maintaining FS benefits. In addition,
        the State's approved E&T plan should identify worksite contracts,
        agreements, and locations and should specify that job search activities will
        be conducted for only those participants in eligible components.

           FNS Response

           In its March 31, 2003, response (see exhibit D, formerly Recommendation
           No. 6), FNS stated:

                  * * * FNS agrees with the recommendation in part. FNSRO

USDA/OIG-A/27601-12-At                                                         Page 20
                 will continue to include in its evaluation of E&T plans a
                 review of the State's explanation of its plans to establish or
                 develop workfare contracts and agreements. Questions on
                 the E&T checklist utilized by FNSRO will be amended * * * to
                 ensure that the State has a plan in place to ensure that
                 locations will be available for ABAWDS placed in the
                 Workfare component. These areas for E&T Plan review will
                 be incorporated into the current checklist by August 1, 2003,
                 so that the new checklist can be utilized for the review of
                 FY 2004 State Plans. A copy will be provided to OIG no
                 later than August 1, 2003.

                 FSRO maintains that it would be a misapplication of Federal
                 regulations to require the SA to develop workfare contracts
                 or agreements prior to placement in the component.
                 Optional workfare, listed under 7 CFR 273.22 does require
                 that contracts and agreements be established at the
                 beginning of the program, unlike the workfare program
                 described by Tennessee in the E&T plan. Tennessee's
                 Workfare component is categorized in the FNS Plan
                 Handbook as an "Additional Component," and is described
                 by 273.7(f)(1)(iv) of the regulations. This was discussed at
                 the meeting with OIG on October 8, 2002 and
                 January 21, 2003. Confirmation from FNS National Office
                 verifying that the [SA] is not required to have workfare
                 contracts and agreements in place prior to an ABAWD
                 beginning the component was provided to OIG on
                 February 6, 2003.

                 The [SA] acknowledges that no workplace contracts were in
                 place in FY 1999. When DLWD assumed the administration
                 of the program during FY 2000, the [SA] made diligent
                 efforts to increase the number of workfare contracts through
                 training of staff and technical assistance in this area. While
                 contracts were not in place for every county, OIG did
                 acknowledge this effort in the report. The [SA] includes in its
                 E&T plan that it intends to develop workfare contracts and
                 agreements with appropriate sources every year, and
                 continues to make demonstrated efforts to accomplish this,
                 without the regulatory requirement to do so.

           OIG Position

           The CFR effective during this period at 7 CFR 273.7(f)(1)(iii) states
           exclusively that the State will operate a workfare program "as described in
           273.22." As FNSRO stated in their response, this section does require

USDA/OIG-A/27601-12-At                                                        Page 21
           contracts and agreements be established. As noted in our OIG position
           response to Recommendation No. 1, 7 CFR 273.7(f)(1)(iv) was silent on
           whether contracts were required, and no official policy statement other
           than a National office official has been issued on this subject. Therefore,
           FNSRO should request from the National office through the OGC an
           official policy statement on whether contracts or agreements are required
           in a regular workfare program. In addition, FNS should validate during its
           upcoming financial and program management reviews that the SA's
           program is in accordance with Federal regulations.

                                       Include evaluation of the States’ workfare
   RECOMMENDATION NO. 8                contracts, agreements, and sites in future
                                       FNSRO conducted ME’s.


           FNS Response

           In its March 31, 2003, response (see exhibit D, formerly Recommendation
           No. 7), FNS stated:

                 * * * FNS concurs with this recommendation. Review
                 instruments will be revised to ensure that when States
                 commit to establishing workfare contracts, agreements, and
                 sites in the E&T plan, the level of activity approved in the
                 plan is evaluated on site. The review instrument will be
                 revised no later than April 15, 2003, so that it can be utilized
                 for the E&T review scheduled in Tennessee in FY 2003.

           OIG Position

           We accept management decision for this recommendation.




USDA/OIG-A/27601-12-At                                                         Page 22
 CHAPTER 2           FNS’ OVERSIGHT WAS NOT ADEQUATE FOR
                   EVALUATING COSTS AND ENSURING THAT FUNDS
                      HAD BEEN USED FOR PROPER PURPOSES

            FNSRO had not adequately monitored and evaluated States' E&T
            Programs including the study of alternatives to the nationally prescribed
            fixed reimbursement rates. In addition, they had not provided sufficient
            guidance to States for documenting actual operating costs, establishing
            staffing levels, and handling other administrative expenses. Furthermore,
            FNSRO had not fully evaluated program costs to determine if States'
            reimbursement claims were necessary and reasonable. As a result,
            FNSRO did not have adequate information available for monitoring
            participation, evaluating success, and for assuring that cost
            reimbursements to States had not exceeded the cost of providing service.

                                       FNSRO had not fully evaluated E&T Program
       FINDING NO. 4                   costs to determine if State’s reimbursement
                                       claims were necessary and reasonable.
     FNSRO HAD NOT FULLY               Tennessee overstated its reimbursable salary
   EVALUATED E&T PROGRAM               and benefit costs by budgeting too many
            COSTS                      workers for the number of participants served.
                                       Also, the State’s reimbursement for salaries,
                                       premises rent, and other related costs were
          not supported by verifiable records. Since the States’ costs have not been
          adequately evaluated, FNSRO does not have assurance that program
          payments have not exceeded actual costs.

            The Office of Management and Budget Circular A-87 (August 29, 1997)
            provides principles and standards for determining allowable costs for
            Federal awards carried out through grants, cost reimbursement contracts,
            and other agreements with State and local Governments. To be allowable
            under Federal awards, costs must meet the following general criteria:

            •      The cost must be adequately documented.

            •      The cost must be necessary and reasonable. A cost is considered
                   reasonable if, in its nature and amount, the cost does not exceed
                   that which would be incurred by a prudent person under the
                   circumstances prevailing at the time the decision was made to incur
                   the cost.




USDA/OIG-A/27601-12-At                                                       Page 23
           Title 7 CFR 273.7 provides that the SA shall ensure that records are
           maintained which support the financial claims being made to FNS. The
           regulations provide further that reimbursement to States is limited to the
           actual amount paid. The regulation also provides that FNS monitor
           expenditures of E&T funds including the cost of individual program
           components.

           FNS Headquarters' guidance to regions for conducting FY ME’s
           recommended that monitoring include an examination of source
           documents supporting reimbursement claims. Headquarters' guidance
           specifically provided that FNSRO must ensure that SA's are expending
           Federal funds in accordance with BBA requirements. However, guidance
           used by FNSRO for the financial part of the review had not been updated
           since 1996 and did not include guidance for reviewing the E&T Program.

           FNSRO had not adequately monitored States’ E&T Programs. None of
           the four ME's conducted in the past 2 years included an in-depth review of
           States’ claimed costs of salaries and benefits. One review, however,
           contained observations and questions about Tennessee’s cost allocation
           procedures but contained no evidence of any in-depth review. Based on
           the results of that review, FNSRO recommended that Tennessee review
           its own cost allocation procedures in upcoming county evaluations.
           However, the State-conducted reviews did not include coverage or
           verification of costs or have any cost-related findings (see Finding No. 2).

           Also, FNSRO had not provided sufficient reviews of staffing, rent, and
           other administrative cost allocations. In Tennessee, for instance, officials
           told us that E&T rental costs were equitably shared with other programs.
           However, for selected locations, they were not able to specifically identify
           from their accounting records why amounts were allocated to the various
           programs including the E&T Program.

           In order to evaluate FNSRO’s monitoring of States' reimbursement claims,
           we selected the E&T Program in Tennessee for review (see Finding No.
           2). Also, the State was 1 of 12, nationwide, that participated under the
           alternative reimbursement method in FY 2000. Reimbursement of costs
           for States participating under the alternative method was not limited by
           slot cap rates of $175 per position filled and $30 per position offered. We
           found that the nationwide cost claims for ABAWD's, by States participating
           under the alternative method, exceeded the slot cap rates by $8,540,834.




USDA/OIG-A/27601-12-At                                                        Page 24
           As shown in Finding No. 2, Tennessee did not have adequate records to
           verify the States’ $2.4 million reimbursement claim (total claim for
           ABAWD's and non-ABAWD's); therefore, we statistically sampled the SA’
           cost records. Our statistical review of FY 2000 staff time charges,
           disclosed that the State established more FTE positions than actually
           needed to operate the program and serve E&T Program participants.
           Charges for the extra FTE's were included in the States’ cost
           reimbursements. Overall, the State over-claimed $1,280,152 for FY 2000.

           FNSRO had not established adequate oversight mechanisms such as
           monitoring of charges, time studies, or periodic reviews of actual costs
           versus claimed costs. In addition, FNSRO had not developed specific
           cost allocation guidance. Such guidance should instruct States that costs
           incurred must be necessary and reasonable and that reimbursement
           claims must be based on actual costs. Such guidance could be in a
           question and answer format such as the general program guidance
           provided by FNS during the implementation of the BBA of 1997.

                                   FNSRO should ensure during the ME process
   RECOMMENDATION NO. 9 that adequate records are established,
                                   maintained, and readily available for claimed
                                   costs and reconcilable with cost data reported
        on the SF 269 and FNS 583 reports, and that sufficient tests of claimed
        costs are conducted to determine if the costs reflect actual costs.

           FNS Response

           In its March 31, 2003, response (see exhibit D, formerly Recommendation
           No. 8), FNS stated:

                 * * * In accordance with our Financial Management Review
                 Guide, we conduct reviews to obtain reasonable assurance
                 that the financial information reported by grantees is correct
                 and complete; that it represents proper expenditures of
                 Federal funds made available to grantees and that grantees
                 have complied with applicable requirements. Appropriate
                 tests of claimed costs are conducted to determine if costs
                 reported represent actual costs expended.          Tests are
                 performed to verify that costs are allowable.

           OIG Position

           We cannot accept management decision at this time. None of FNS's ME
           reviews in the past two years included in-depth reviews of claimed salaries
           and benefit costs, and its relationship to program accomplishments. To
           accept management decision, FNS needs to update ad improve its review


USDA/OIG-A/27601-12-At                                                       Page 25
           of States' claimed costs in future ME reviews, and include a timeframe for
           implementation.

                                       FNSRO should review States' staffing, rent,
  RECOMMENDATION NO. 10                and other administrative costs to ensure they
                                       are reasonable, necessary, and represent
                                       actual costs.

           FNS Response

           In it's March 31, 2003, response (see exhibit D, formerly Recommendation
           No. 9), FNS stated, "* * * Based on OMB Circular A-87, Costs Principles
           For State and Local Governments, FNS Financial Management staff does
           review administrative costs to ensure they are reasonable and necessary.
           Our review of administrative costs will determine if these costs are valid."

           OIG Position

           We cannot accept management decision at this time. Specific details
           should be provided on how future ME reviews will adequately assess
           administrative costs, and include a timeframe for implementation.




USDA/OIG-A/27601-12-At                                                        Page 26
                                       FNSRO had no method to measure success
       FINDING NO. 5                   or    monitor    progress      of   alternative
                                       reimbursement States. ME's or reports have
     FNSRO HAD NOT                     not been designed to review States that are
                                       operating under the alternative reimbursement
 MONITORED SUCCESS OF
                                       method. Thus, FNSRO had no assurances
      ALTERNATIVE                      that SA's were achieving program objectives.
 REIMBURSEMENT STATES
                                       The FS Act of 1977 as amended requires that
           the U.S. Department of Agriculture “shall determine that the amounts
           spent or planned to be spent on components reflect the reasonable cost of
           efficiently and economically providing components appropriate to recipient
           employment and training needs * * *." FNS detailed in its memorandum to
           regional administrators (February 20, 1998) its guidance for establishing
           component reimbursement rates. FNS created two methods to reimburse
           SA's for the cost of the FS E&T Programs. The first method is to limit
           reimbursement to $175 per filled component slot and $30 for any valid
           offer of a component slot. The second, the alternative reimbursement
           method, did not limit reimbursement to any dollar cap, but must require
           States to provide opportunities to all ABAWD's.

           To be approved for the alternative reimbursement method, States
           submitted, in their annual plans, the capacity, and ability to serve
           ABAWD's and a description of the management controls that would be
           implemented to meet the requirements of the alternative reimbursement
           method. Once a State was approved; however, there was no criteria to
           determine if the alternative method was successful in serving those
           ABAWD's.

           Section 4121 of the FS Reauthorization Act, effective May 13, 2002,
           reauthorizes the E&T Program through FY 2007 and also:

           •   Eliminated the 80 percent use of funds requirement effective May 13,
               2002. State agencies may now spend their 100-percent Federal E&T
               funds without earmarking at least 80 percent to serve ABAWD's.

           •   Provided for an additional amount - up to $20 million - to reimburse
               State agencies that guarantee to serve all their at-risk ABAWD's in the
               last month of their 3-month eligibility period.

           •   Eliminated the slot rate method of reimbursing States for the E&T
               Program costs.

           FNS approved Tennessee for alternative reimbursement for FY 2000,
           although, the State’s plans showed no change in the number of
           participants from FY 1999 to FY 2000, or in the cost of components. Also,


USDA/OIG-A/27601-12-At                                                       Page 27
           the FY 2000 plan didn’t address appropriate management controls to
           insure that ABAWD's were served. Furthermore, the FNSRO ME of
           Tennessee’s E&T Program in February 2000 didn’t show coverage of
           management controls to meet the requirements of the alternative
           reimbursement method.

           FNS also approved Alabama as an alternative reimbursement State after
           a ME dated November 2000 revealed that job search and work
           placements were the only significant components to which ABAWD clients
           were assigned. Also, the review determined that the State did not
           accurately report offered slots, which jeopardized $716,800 in FY 2000
           funding. Although an evaluation of the State showed these significant
           problems with the State’s program, FNS still approved the State for the
           alternative method.

           FNS approved four States for the alternative reimbursement method in
           FY 2001 compared to three in FY 1999. Nationwide, 16 States have been
           approved for FY 2001. Since the new Act eliminates the slot funding
           caps, the need for evaluations and reports to monitor the States' success
           in providing E&T services increases.

                                 Conduct ME reviews of States approved for
  RECOMMENDATION NO. 11 additional ABAWD funding as permitted in the
                                 FS Reauthorization Act. Evaluations should
                                 include a review of management controls to
       ensure that all ABAWD's are served as required by the Act.

           FNS Response

           In it's March 31, 2003, response (see exhibit D, formerly Recommendation
           No. 10), FNS stated, "* * * FNS concurs with this recommendation. E&T
           reviews in Florida, Mississippi, and Tennessee will be conducted in
           FY 2003. An E&T review in Alabama will be scheduled for FY 2004."

           OIG Position

           We cannot accept management decision at this time. FNS should provide
           specific details on how controls will be reviewed to ensure that all
           ABAWD's are served as required, and a timeframe for implementation of
           these reviews.




USDA/OIG-A/27601-12-At                                                     Page 28
                                       Establish or clarify reporting requirements,
  RECOMMENDATION NO. 12                particularly on actual participation data in
                                       workfare, to determine if the additional
                                       ABAWD funding was successful.

           FNS Response

           In its March 31, 2003, response (see exhibit D, formerly Recommendation
           No. 11), FNS stated:

                 * * FNS concurs with this recommendation. Proposed
                 reviews to the FNS-583 report were published on
                 October 18, 2003 (67 FR 64348). Interim instructions based
                 on Food Stamp Reauthorization Act, effective May 13, 2002,
                 were provided to SA's to clarify reporting responsibilities until
                 the proposed changes to the FNS-583 are implemented. A
                 copy of the Federal Register notice and the interim
                 instructions disseminated to States will be provided to OIG
                 no later than April 15, 2003.

                 As part of the E&T plan review, FNSRO will also conduct
                 comparative analysis of the number of workfare participants
                 reported on the most recent 583 reports and the number of
                 workfare filled slots estimated in the plan to ensure that Sate
                 has utilized actual workfare participation data to make
                 projections for the impending FY. These areas for E&T Plan
                 review will be incorporated into the current checklist by
                 August 1, 2003, so that the new checklist can be utilized for
                 the review of FY 2004 State Plans. A copy will be provided
                 to OIG no late than August 1, 2003.

           OIG Position

           We agree with the management decision for this recommendation.




USDA/OIG-A/27601-12-At                                                          Page 29
EXHIBIT A – SUMMARY OF MONETARY RESULTS

   FINDING
   NUMBER            DESCRIPTION          AMOUNT         CATEGORY
                                                       Questioned Costs,
                Reimbursed Claims                      Recovery
      1           Exceeded Actual Costs   $1,257,979   Recommended
                                                       Unsupported
                Reimbursed Claims                      Costs, Recovery
      1           Exceeded Actual Costs    $614,600    Recommended
                                                       Questioned Costs,
                Reimbursed Claims                      Recovery
      2           Exceeded Actual Costs    1,280,152   Recommended
                 Total                    $3,152,731




USDA/OIG-A/27601-12-At                                          Page 30
EXHIBIT B – STATISTICAL SAMPLING PLAN

                                                                          Page 1 of 2

The purpose of this statistical sampling test was to evaluate the Tennessee SA’s
compliance with funding requirements. The sampling design was a simple random
sampling, without replacement, where employees were selected from lists obtained
from the SA. A two-sided confidence level was used for all statistical estimates.

            I.     Sample Approach
                   Record File – We obtained computer printouts for each month of
                   FY 2000 from the State that listed monthly the employees that
                   charged time for working on the E&T Program.
                   Universe – The universe for all 12 months of FY 2000 comprised of
                   1,181 monthly employee charges by Tennessee employees.
                   Sample Unit – A sampling unit was defined as time charged to the
                   program by an employee.
                   Sample Size – A random sample of 120 of the 1,181 monthly time
                   charges.
                   Sample Selection - The universe printouts of 1,181 monthly
                   charges were sequentially numbered. Using a list of random
                   numbers for each month furnished by an Office of Inspector
                   General statistician, we selected the corresponding sample unit for
                   the universe printouts. The selection was without replacement.

            II.    Review procedures – We developed pro forma worksheets to
                   standardize the review and collection of data and to facilitate
                   summary and analysis of results. For each sample unit, we
                   reviewed the employees hours charged and the number of
                   ABAWD's served for the selected month for the period
                   October 1, 1999, through September 30, 2000 (FY 2000).

            III.   Statistical Analysis and Projections – Statistical analyses were
                   accomplished using SAS software. The statistical estimates used
                   for projections along with their standard errors were produced with
                   the SAS software, SUDAAN, which analyzes sample survey data
                   gathered from complex multi-stage sample designs. SUDAAN was
                   written at the Research Triangle Institute, Research Triangle Park,
                   North Carolina. The sample design and sample selections used in
                   this audit were determined using SAS.




USDA/OIG-A/27601-12-At                                                       Page 31
                                                                          Page 2 of 2

After the results were summarized, a computer software package was used to generate
projections from the sample results. A two-sided confidence limit was used to give the
upper and lower bounds of the projections at the 95-percent level. The sample
precision is the difference between the point estimate and the lower confidence level
divided by the point estimate and expressed as a percentage. The following schedule
shows the projection results.


                                                 Projections
                                Point         Lower       Upper
           Classification      Estimate       Limit       Limit        Precision
          Excess Hours
          Charged                 52,643       44,052       61,235          .163
          Excess Cost           $739,012     $614,385     $863,640          .169




USDA/OIG-A/27601-12-At                                                       Page 32
EXHIBIT C – COUNTY EMPLOYEES RESPONSES ON TOTAL TIME
            SPENT SERVING E&T CLIENTS

The following table shows the responses of county employees to the time necessary to
serve E&T clients:

             Employee                   Time Spent (minutes)               Sample Hits (months)
                A                                30                                 1
                B                                30                                 1
                C                                30                                 1
                D                             30 to 60                              1
                E                             30 to 60                              2
                F                             30 to 60                              1
                G                             60 to 90                            None1
                H                             60 to 90                            None1
                I                                60                                 2
                J                             45 to 60                              1
                K                                60                                 1
                L                             60 to 90                              2
                M                                60                               None1
                N                                60                                 5
                O                                60                                 1
                P                                60                                 2
                Q                                60                                 1
                R                             30 to 60                              2
                S                             30 to 60                              2
                T                             30 to 60                              2
                U                                30                                 3
                V                                30                                 1
                W                                30                                 2
1
    These employees were interviewed as part of our survey work prior to obtaining our sample employees




USDA/OIG-A/27601-12-At                                                                         Page 33
                                                                                                  1
EXHIBIT D – FNS REGIONAL OFFICE RESPONSE TO DRAFT REPORT
                                                                                        Page 1 of 5




1
  We revised Recommendation No. 1 into Recommendations Nos. 1 and 2 after we received this
response to facilitate management decision and closure actions. Therefore, the recommendation
numbers in this response no longer correspond to recommendation numbers in the report.


USDA/OIG-A/27601-12-At                                                                     Page 34
                         Page 2 of 5




USDA/OIG-A/27601-12-At     Page 35
                         Page 3 of 5




USDA/OIG-A/27601-12-At     Page 36
                         Page 4 of 5




USDA/OIG-A/27601-12-At     Page 37
                         Page 5 of 5




USDA/OIG-A/27601-12-At     Page 38
                                                  ABBREVIATIONS

ABAWD
 Able-bodied Adults Without Dependents................................................................................... 1

BBA
  Balanced Budget Act .................................................................................................................. 1

CFR
  Code of Federal Regulations..................................................................................................... 10

DHS
 Department of Human Services .................................................................................................. 2
DLWD
 Department of Labor and Workforce Development ................................................................... 2

E&T
  Employment and Training .......................................................................................................... 1

FNS
  Food and Nutrition Service......................................................................................................... 1
FNSRO
  Food and Nutrition Service Regional Office .............................................................................. 3
FS
  Food Stamp ................................................................................................................................. 1
FTE
  Full-Time Equivalent ................................................................................................................ 10
FY
  Fiscal Year .................................................................................................................................. 1

ME
 Management Evaluation ............................................................................................................. 6

OGC
  Office of the General Counsel .................................................................................................... 8
OIG
  Office of Inspector General ........................................................................................................ 3

SA
  State Agency ............................................................................................................................... 1




USDA/OIG-A/27601-12-At                                                                                                              Page 39
